Certificate of Service
8/10/2020
Herewith are 40 of the paperbooks
No.
In the

Supreme Court of the United States

PETITION FOR WRIT OF CERTIORARI

I hereby certify that I am this day serving the foregoing
document (3) copies upon the person(s) and in the manner indicated
below. Service by first-class mail addressed as follows:
Jay Norman Varon
FOLEY & LARDNER, LLP
Suite 500
3000 K Street, NW
Washington, DC 20007-5143

William Nelson Sinclair
Andrew Clayton White
SILVERMAN,
THOMPSON,
SLUTKIN & WHITE
Suite 2600
201 North Charles Street
Baltimore, MD 21201-0000
Respectfully Submitted,
ROD CURRY
CURRY & TAYLOR LLC
1726 NEVADA AVE NE
ST. PETERSBURG, FL 33703
(202) 350-9073

